U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

April 6, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Elijah Hasan Jones v. United States of America,
S.Ct. No. 20-7447

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 6,
2021, and placed on the docket on March 15, 2021. The government’s response is due on April
14, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including May 14, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7447
JONES, ELIJAH HASAN
USA

BONNIE WILLIAMS
FEDERAL PUBLIC DEFENDER
150 WEST FLAGLER STREET
STE. 1500
MIAMI, FL 33130
305-533-4282
BONNIE_PHILLIPS-WILLIAMS@FD.ORG

